No. 20-7304
IN THE

Supreme Court of the United States
ROBERT PHILLIP IVERS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE EIGHTH CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33 and the April 15 Order of this Court,
I, Brett D. Kelley, an attorney appointed to represent petitioner under the Criminal
Justice Act, 18 U.S.C. ยง 3006A, hereby certify that the accompanying Reply Brief for
Petitioner contains 2,993 words, excluding parts of the document that are exempted
by Supreme Court Rule 33.
Executed on May 14, 2021.

BRETT D. KELLEY
CJA Counsel for Petitioner
KELLEY, WOLTER & SCOTT, P.A.
Centre Village Offices
Suite 2530
431 South Seventh Street
Minneapolis, MN 55415
Tel: (612) 371-9090
Fax: (612) 371-0574
bkelley@kelleywolter.com

